                           AUDIT REPORT
                      FOR OFFICIAL USE ONLY




 Although HUD Continued to Make Improvements to Its Entity
 Wide Security Program, Challenges Remained in Its Efforts to
         Comply with Federal Security Requirements

                                     2011-DP-0005

                                   February 10, 2011

   This is a LIMITED DISTRIBUTION audit report. The OIG has determined that the
    contents of this audit report would not be appropriate for public disclosure and has
therefore limited its distribution to those officials listed on the report distribution list. As a
  recipient of this report, you must safeguard the audit report from unauthorized release.

                            OFFICE OF AUDIT
                  INFORMATION SYSTEMS AUDITS DIVISION
                           WASHINGTON, DC
